• V.

Appendix
i

;i

THIRD CIRCUIT COURT OF
APPEALS ORDER/OPINION

i

B

UNITED STATES DISTRICT
COURT OPINION & ORDER '

OFFICIAL TRANSCRIPT OF
JANUARY 3, 2013
EMPHASIS IS--> ON PAGES
62 to 67 .

Case: 20-3292

Document: 10-1

Page: 1

Date Filed: 06/30/2021

June 24, 2021
BLD-206
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-3292
ANDRE M. ADAMS, Appellant
v.

SUPERINTENDENT HUNTINGDON SCI; et al.
(M.D. Pa. Civ. No. l-19-cy-01455)
Present:

AMBRO, SHWARTZ, and PORTER, Circuit Judges
Submitted is Appellant’s application for a certificate of appealability under
28 U.S.C. § 2253(c)(1) in the above-captioned case.
Respectfully,

Clerk
_____________________ ORDER
__________________________ _____________ _
The request for a certificate of appealability is denied. See 28 U.S.C. § 2253.
Appellant has not shown “that jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional right and that jurists of reason
would find it debatable whether the district court was correct in its procedural ruling.”
Slack v. McDaniel 529 U.S. 473, 484 (2000). For substantially the reasons stated by the
District Court, Appellant’s claim that appellate counsel was ineffective for failing to
challenge the trial court’s ruling that Appellant had forfeited his Sixth Amendment right
to counsel is meritless. See Strickland v. Washington, 466 U.S. 668, 687 (1984); United
States v. Goldberg. 67 F.3d 1092, 1101-02 (3d Cir. 1995); Fischettiv. Johnson, 384 F.3d
140, 148-53 (3d Cir. 2004). Appellant’s claim that appellate counsel was ineffective for
failing to challenge the trial court’s decision to remove him from the jury selection
proceedings is likewise meritless. See Strickland, 466 U.S. at 687; Illinois v. Allen, 397
U.S. 337, 343 (1970). Appellant’s claim that appellate counsel was ineffective for failing
to raise a speedy trial claim under Pennsylvania Rule of Criminal Procedure 600 is
without merit. See Strickland, 466 U.S. at 687; Rountree v. Balicki, 640 F.3d 530, 539
(3d Cir. 2011). Lastly, reasonable jurists would not debate the District Court’s
procedural ruling that Appellant forfeited claims four and five by raising them for the

Case: 20-3292

Document: 10-1

Page: 2

Date Filed: 06/30/2021

------s traverse—SerHarteY-vrVaughnrr86-F:3-d-3-6-773-70-(-3'd-eir-l-999)7- Weobserve that these claims were, in any event, procedurally defaulted because Appellant
failed to include them in his brief to the Pennsylvania Superior Court on PCRA review.
See Eiser v. Brown & Williamson Tobacco Corp., 938 A.2d 417, 428-29 (Pa. 2007)
(holding that, under the Pennsylvania appellate rules, issues contained in an initial
statement of errors complained of on appeal are not preserved unless included in
appellate brief); seealso NgmswBrpoks, 794 F.3d 401, 404 (3d Cir. 2015) (noting that
counsel’s failures on PCRA review appeal do not constitute cause to excuse a procedural
default).
By the Court,

s/ David J. Porter
Circuit Judge
Dated: June 30, 2021
PDB/cc: Andre M. Adams .
Christopher J. Schmidt, Esq.

A True Copy: °

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

___lN-BHE-lI^lJI.DSrA£ESI)ISrRIC1 COURT----FOR THE MEDDLE DISTRICT OF PENNSYLVANIA
ANDRE M. ADAMS,
Petitioner

No. l:19-cv-01455

v.

(Judge Kane)

SUPERINTENDENT
SCI HUNTINGDON, et aL,
Respondents
memorandum

On August 22, 2019,
confined at the

pro se Petitioner Andre M. Adams (“Petitioner”), who is presently

State Correctional Institution in Huntingdon, Pennsylvania (“SCI Huntingdon );

initiated the above-captioned action by filing a petition for a writ of habeas corpus pursuant to 28
U.S.C. § 2254. (Doc. No. 1.) Following an Order to show cause (Doc. No. 6), and after
receiving an

extension of time to do so (Doc. Nos. 8, 9), on November 22, 2019, Respondents

filed a motion to dismiss (Doc. No. 10) Petitioner’s § 2254 petition as untimely. In a
Memorandum and Order dated April 27, 2020, the Court concluded that Petitioner’s § 2254
petition was timely filed, denied Respondents ’ motion to dismiss, and directed Respondents to
file a response regarding the merits of the petition within twenty-one

(21) days. (Doc. Nos. 17,

18.) After rece.ving an extension of time (Doc. Nos. 19.20). Respondents filed their response
on June 29, 2020 (Doc. No. 21). After receiving an
filed a traverse on

extension of time (Doc. No. 23), Petitioner

August 7, 2020 (Doc. No. 25). Accordingly, Petitioner’s § 2254 petition

(Doc. No. 1) is ripe for disposition.

8

I-------BACKGROUND
A.

Petitioner’s State Proceedings

In February and July of 2012, Petitioner was charged with numerous drug trafficking
offenses. See

r.nmmonwealth v. Adams, Docket Nos. CP-14-CR-0000355-2012 & CP-14-CR

0001228-2012 (Centre C.C.P.).

Petitioner was represented by numerous attorneys during his

criminal proceedings, as set forth by the trial court:
In the instant case, [Petitioner] was assigned three separate court-appointed
attorneys in the capacity of either standby counsel or full representation, and me
with a fourth attorney who refused to accept the court appointment after speaking
with [Petitioner], [Petitioner] further sought out at least two additional private
attorneys throughout the course of his case. Initially, [Petitioner] appeared at the
preliminary hearing on docket number 2012-0355 represented by Philip MasorP
Esquire, a privately retained attorney. However, Attorney Masorti did not enter his
appearance and on February 22, 2012, the Court appointed Edward Blanank,
Esquire, to represent [Petitioner], Approximately two months later, Stephen 1.
O’Hanlon, Esquire, another privately retained attorney, entered his appearance. On
juiv 9 2012 Attorney O’Hanlon filed a Motion to Withdraw as Counsel, citing
lack of payment and irreconcilable conflicts. On July 12,2012, this Court permitted
Attorney Blanarik’s withdrawal and Daniel Nelson, Esquire, was subsequen y
appointed to represent [Petitioner].
[Petitioner] was arrested on eighteen additional offenses on July 3, 2012,
which were docketed at 2012-1228. On July 9, 2012 Attorney Blanank was
appointed to represent [Petitioner] on these charges as well. On August 28, 2012,
Attorney Blanarik filed a Motion to Withdraw from this case and was permitted to
do so on August 29, 2012.
On August 6, 2012, [Petitioner’s] cases (2012-0355 and 2012-1228) were
On August 28, 2012, Attorney Nelson also filed a Motion to Withdraw,
joined,
citin g irreconcilable differences of opinions. A hearing was held on September ,
omnibus pretrial motion filed by [Petitioner] and the motions of both
2012 on an
Attorney O’Hanlon and Attorney Nelson. At that hearing, regarding his then' In a habeas proceeding, federal courts may take judicial notice of state court records^
MWv v Winstead, Civ. No. 12-1732, 2013 WL 3279793, at *2 (W.D. Pa. June 27, 2013), seq
Jvnnlds v. ElTingsworth. 843 F.2d 712, 714 n.l (3d Cir. 1988). Accordingly, m reviewing
Petitioner’s § 2254 petition, the Court takes judicial notice of the publicly-available dockets of
criminal and collateral post-conviction proceedings in the Court of Common Pleas of
Petitioner’s
Centre County and the Pennsylvania Superior Court.
2

current counsel, [Petitioner] indicated he believed both Attorney O Hanlon and
Attorney Nelson refused to consider his'lnput andlegal researchnmd-would-not
honor his requests to file certain pleadings with the court. [Petitioner] further
indicated he believed Attorney Nelson to be inexperienced and incompetent.
Regarding his previously appointed and privately retained counsel, [Petitioner]
testified he and Attorney Blanarik had “an issue” and he had been unable to pay
Attorney Masorti to represent him beyond the preliminary hearing. [Petitioner] also
noted although an attempt had been made to appoint Charles J. .Kroboth, Jr., Esquire
to represent him, after a brief meeting, Attorney Kroboth ultimately declined the
appointment. [Petitioner] requested that he be appointed yet another attorney.
(Doc. No. 21-38 at 4-5.) On September 19, 2012, the trial court issued an opinion and order
concluding that Petitioner had forfeited his right to court-appointed counsel and appointing
Attorney Nelson as standby counsel. (Id at 5.)
On October 1, 2012, the trial court conducted a hearing regarding Petitioner’s request for
a continuance of jury selection. (Doc. No. 21-22 at 4.) Attorney Nelson could not be present at
the hearing; accordingly, the trial court appointed Karen Muir, Esquire (“Attorney Muir ) to
represent Petitioner for the purposes of the hearing. (Id) During the hearing, Petitioner argued
that the trial court had forced him to ask for a continuance. (Id at 4-16.) On October 12, 2012,
the trial court conducted a hearing regarding multiple pretrial motions filed by Petitioner. (Doc.
No. 21-23.) During the hearing, Petitioner asserted speedy trial violations pursuant to Rule 600
of the Pennsylvania Rules of Criminal Procedure. (Id) The Commonwealth argued, however,
that Petitioner was responsible for delays in his proceedings because of the motions he had filed.
(Id) Subsequently, Petitioner again asked for the appointment of counsel, and the trial court
appointed Attorney Nelson to represent Petitioner. (Doc. No. 21-24.)
On December 3, 2012, the parties appeared for jury selection. During jury selection,
Petitioner indicated on several occasions that Attorney Nelson was not his attorney and that he
was representing himself. (Id at 3, 10, 12-13,17-18,22-23,25.) Petitioner refused to engage in
two (2) separate colloquies regarding his right to waive his right to counsel. (Id at 4=8, 10-13,
3

23.) The trial court warned Petitioner that he would be removed from jury selection if he became
disruptive. (Id at 9.) Ultimately, the trial court concluded that Petitioner would not be present
when Attorney Nelson and the Commonwealth selected the jury because of Petitioner’s conduct
and the absence of a lawful waiver of counsel. (Id. at 16.) In response, Petitioner indicated that
he could conduct jury selection himself and purported to fire Attorney Nelson. (Id at 20-21.)
The court then informed Petitioner that he could remain if he was silent, except for
communication with Attorney Nelson. (Id at 21.) Petitioner stated that Attorney Nelson was
not his attorney. (Id, at 22.) The trial court decided to remove Petitioner from jury selection.
(Id at 23.)
The trial court, however, identified thirty (30) potential jurors, brought them into the
courtroom, and allowed Petitioner to remain, warning him that if he had any outbursts he would
be removed. (Id at 24-25.) The trial court denied Petitioner’s request to not be present during
voir dire because it wanted Petitioner to be present. (Id at 25-26.) The jury was selected with
Petitioner present. (Id. at 26-49.) Petitioner then asked if he could be taken back to jail. (Id at
49.) The trial court denied Petitioner’s request, and Petitioner replied, “I need to go back to jail.
I had enough of this.” (Id) The trial court asked the jurors to disregard Petitioner’s statement.
(Id.) Petitioner disrupted the proceedings again, arguing that the jury was not a jury of his peers
because he is black. (Id at 50.) The trial court then provided a cautionary instruction to the jury
at Attorney Nelson’s request. (Id. at 50-51.)
Before trial began, the trial court granted Attorney Nelson’s motion to withdraw and
denied Petitioner’s request for another appointed attorney. (Doc. No.2 1-38 at 5-6.) On January
10, 2013, following the jury trial, Petitioner was convicted of thirty (30) counts of possession of
a controlled substance with intent to deliver, one count of criminal conspiracy, and seven (7)
4

facility~ —
0000355-2012 & CP-14-CR-0001228-2012. Attorney Muir was

D°Cket N0S' CP~14~CR~
appointed to represent

Petitioner at sentencing. On February 12, 2013, the trial court sentenced him to an aggregate
term of a minimum of seventy-nine (79) years and a maximum ofl 58 years ’ incarceration. See
id. Petitioner
2015,

filed a timely appeal to the Superior Court of Pennsylvania. See id On June 15,

the Superior Court vacated Petitioner’s judgment of sentence and remanded the matter for

resentencing after concluding that the imposed sentence was unconstitutional pursuant to
A lie.me v 1 Inited States. 570 U.S. 99 (2013).2 See Adams V. Miller, No. 767 MDA 2015, 2015
WL 6871185, at

*1 (Pa. Super. Ct. Nov. 6, 2015). On August 25, 2015, the trial court

resentenced Petitioner to an aggregate

term of a minimum of forty-five (45) years and a

maximum of ninety (90) years’ incarceration. See Adams, Docket Nos. CP-14-CR-00003552012 & CP-14-CR-0001228-2012.
While his appeal was pending, Petitioner filed a “petition for writ of habeas corpus
subjiciendum,” arguing that “the criminal statutes he was found guilty of violating are
unc

onstitutional due to the lack of an enacting clause.” See Adams, 2015 WL 6871185, at *1.

The trial court denied the petition by an

order dated April 17,2015. See id. The trial court also

noted that if Petitioner’s petition were construed as a petition pursuant to the Post Conviction
Relief Act (“PCRA”), it would have been dismissed as premature in light of Petitioner s direct
appeal. See id.

On November 6, 2015, the Superior Court affirmed the trial court’s order, noting

that Petitioner’s claim was cognizable under the PCRA and that his petition, construed as one
brought pursuant to the PCRA, was premature. See id. at *3.

UnAlkvne the United States Supreme Court held that “any fact that increases the mandatory
minimum [sentence] is an ‘element’ that must be submitted to the jury. See Alleyne,
at 102.

5

After resentencing by the trial court, Petitioner appealed his new judgment of sentence to
the Superior Court. See Adams. Docket Nos. CP-14-CR-0000355-2012 & CP-14-CR-00012282012. On December 2, 2015, the Superior Court dismissed his appeal for failure to comply with
Pennsylvania Rule of Appellate Procedure 3517.3 (Doc. No. 10-1 at 3.) Petitioner did not file a
■ petition for allowance of appeal with the Supreme Court of Pennsylvania.
The trial court’s docket indicates that Petitioner filed a PCRA petition on October 29,
2015. See Adams, Docket Nos. CP-14-CR-0000355-2012 & CP-14-CR-0001228-2012.
Counsel was appointed to represent Petitioner, and after receiving several extensions of time,
counsel filed an amended PCRA petition on December 30, 2016. See icL Petitioner alleged that
appellate counsel was ineffective for failing to raise the following five (5) issues on appeal: (1)
Petitioner’s Sixth Amendment rights were violated when the trial court forced him to proceed to
trial as a pro se defendant; (2) the trial court improperly removed Petitioner from the jury
selection process and forced standby counsel to select the jury; (3) Petitioner’s right to a speedy
and prompt trial was violated; (4) the Commonwealth “engaged in sentencing manipulation by
prolonging their investigation so as to increase [the number of] mandatory sentence[s] against
Petitioner; and (5) Petitioner was entrapped as a matter of law. (Doc. No. 10-5 at 4.) The PCRA
court held an evidentiary hearing regarding Petitioner’s claims on August 25, 2017. (Doc. No.
21-35.) On September 7, 2017, the PCRA court denied Petitioner’s petition. (Doc. No. 21-36.)

3 Rule 3517 states:
Whenever a notice of appeal to the Superior Court is filed, the Prothonotary shall
send a docketing statement form which shall be completed and returned within ten
(10) days in order that the Court shall be able to more efficiently and expeditiously
administer the scheduling of argument and submission of cases on appeal. Failure
to file a docketing statement may result in dismissal of the appeal.
Pa. R. App. P. 3517.

6

On September 24, 2018, the Superior Court affirmed the denial of Petitioner’s PCRA petition.
(Doc. No. 10-5.) On July 8, 2019, the Supreme Court of Pennsylvania denied Petitioner s
petition-for allowance of appeal. (Doc. No. 10-6 at 5.) Petitioner subsequently filed the instant
§ 2254 petition on August 22, 2019. (Doc. No. 1.)
B.

Petitioner’s Habeas Claims

Petitioner did not use this Court’s form for filing his § 2254 petition and, therefore, it is
difficult for the Court to discern the claims for relief that Petitioner is raising. Respondents
assert that Petitioner’s § 2254 petition sets forth the following three (3) claims for relief:

.

1.

Appellate counsel was ineffective for failing to assert on direct appeal that
Petitioner’s Sixth Amendment right to counsel was violated when he was forced
to proceed pro se;

2.

Appellate counsel was ineffective for failing to assert on direct appeal that
Petitioner was improperly removed from jury selection, and

3.

Appellate counsel was ineffective for failing to assert on direct appeal that
Petitioner ’ s right to a speedy and prompt trial was violated.

(Doc. No. 21 at 13.) The Court agrees with Respondent that Petitioner has set forth the three (3)
claims for relief noted above.4

4 In his traverse, Petitioner requests for the first time that the Court “review the five issues
waived by Attorney Muir.” (Doc. No. 25 at 5-6.) These issues include the three (3) set forth
supra as well as the following two (2) grounds for relief: (1) whether appellate counsel was
ineffective for failing to argue that the Commonwealth “engaged m sentencing manipulation y
prolonging their investigation so as to increase the number of mandatory sentences agains
Petitioner”- and (2) whether appellate counsel was ineffective for failing to argue that Petitioner
“was entrapped as a matter of law or as a matter of fact.” (Doc. No. 1 at 60 Petitioner, however
has set forth no argument in support of these two grounds for relief m his § 2254 petition and hi
traverse, and the Court’s reading of the § 2254 petition leads to a conclusion that Petitioner did
not seek to proceed upon them in the above-captioned case. These arguments, therefore are not
properly before the Court; accordingly, the Court will not consider them See Tyler y. Mitchell,
416 F 3d 500, 504 (6th Cir. 2005) (noting that an argument first presented m the petitioner s
“traverse rather than in his habeas petition [] was not properly before the district court );
Martinez v. Nash. No. 05-461, 2006 WL 2241604, at *10 (D.N.J. Aug. 2, 2006) (concluding that
traverse was not the proper pleading to raise additional grounds for relief).
7

II.

LEGAL STANDARD
Habeas corpus is an ‘“extraordinary remedy’ reserved for defendants who were

‘grievously wronged’ by the criminal proceedings.” See Dunn v. Colleran. 247 F.3d 450, 468
(3d Cir. 2001) (quoting Calderon v. Coleman. 525 U.S. 414, 146 (1998)). The exercise of
restraint by a federal court in reviewing and granting habeas relief is appropriate due to
considerations of comity and federalism. See Engle v. Isaac. 456 U.S. 107, 128 (1982). “The
States possess primary authority for defining and enforcing the criminal law. In criminal trials
they also hold the initial responsibility for vindicating constitutional rights. Federal intrusions
into state criminal trials frustrate both the States’ sovereign power and their good-faith attempts
to honor constitutional law.” Id. States also have a recognized interest in the finality of
convictions that have survived direct review within the state court system. See Brecht v.
Abrahamson. 507 U.S. 619, 620 (1993).
A district court may entertain an application for a writ of habeas corpus filed by a person
in state custody “only on the ground that he is in custody in violation of the Constitution or laws
of the United States.” See 28 U.S.C. § 2254(a). If a claim presented in a § 2254 petition has
been adjudicated on the merits in state court proceedings, habeas relief cannot be granted unless:
the adjudication of the claim - (1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly established [fjederal law, as
determined by the Supreme Court of the United States; or (2) resulted in a decision
that was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.
IdL § 2254(d).

8

III.

DISCUSSION
A.

Standard for Ineffective Assistance of Counsel Claims

In Strickland v. Washington. 466 U.S. 668 (1984), the Supreme Court explained that
there are two components to demonstrating a violation of the right to effective assistance of
counsel. First, the petitioner must show that counsel’s performance was deficient. This requires
. showing that “counsel’s representation fell below an objective standard of reasonableness.” See
id. at 688; see also Williams v. Taylor. 529 U.S. 362, 390-91 (2000). Second,
under Strickland, the petitioner must show that he was prejudiced by the deficient performance.
“This requires showing that counsel’s errors were so serious as to deprive the defendant of a fair
trial, a trial whose result is reliable.” Strickland. 466 U.S. at 687. To establish prejudice, the
defendant “must show that there is a reasonable probability that, but for counsel's unprofessional
errors, the result of the proceeding would have been different. A reasonable probability is a
probability sufficient to undermine confidence in the outcome.” See id. at 694.
The Strickland test is conjunctive and a habeas petitioner must establish both the deficiency in
the performance prong and the prejudice prong. See Strickland. 466 U.S. at 687; Dooley v.
Petsock. 816 F.2d 885, 889 (3d Cir. 1987). As a result, if a petitioner fails on either prong, he
loses. See Holladay v. Haley. 209 F.3d 1243, 1248 (11th Cir. 2000) (“Because both parts of the
test must be satisfied in order to show a violation of the Sixth Amendment, the court need not
address the performance prong if the defendant cannot meet the prejudice prong, or vice versa.”)
(citation omitted); Foster v. Ward. 182 F.3d 1177, 1184 (10th Cir. 1999) (“This court may
address the performance and prejudice components in any order, but need not address both if Mr.
Foster fails to make a sufficient showing of one.”).

9

______T4re4wo-pronged-testxstabiishcdjn Strickland “qualifies as ‘clearly established Federal
law’” for purposes of the AEDPA. See Rainey v. Varner, 603 F.3d 189, 197 (3d Cir. 2010)
(quoting Williams v.

Taylor. 529 U.S. 362, 391 (2000)).5 Therefore, under § 2254(d)(1), the

relevant inquiry in assessing ineffectiveness claims that have been adjudicated on the merits is
whether the state court’s decision involved an unreasonable application of Strickland or are
based on an unreasonable determination of the facts. See Jacobs v. Horn, 395 F.3d 92, 107 n.9
(3d Cir. 2005).
Claims regarding ineffective assistance of appellate counsel are evaluated under the same
Strickland standard set forth above. See Lewis v. Johnson, 359 F.3d 646, 656 (3d Cir. 2004).
An attorney’s decision about which issues to raise on appeal is a strategic one, and an attorney is
not required to raise every possible non-frivolous issue on appeal. See Smith v. Robbins, 528
U.S. 259,

272 (2000); Albrecht V. Horn, 485 F.3d 103, 138 (3d Cir. 2007), Ruehl v. Vaughni, 166

F 3d 163, 174 (3d Cir. 1999). As a general rule, the presumption of effective assistance by
appellate counsel will be overcome “only when ignored issues are clearly stronger than those
presented.” See Smith, 528 U.S. at 285. To establish prejudice, the petitioner must demonstrate
a reasonable likelihood that the appellate court would have resolved the case differently if not for
counsel’s deficiencies. See United States v. Marmino- 212 F.3d 835, 845 (3d Cir. 2000).
B.

Ground One

In Ground One, Petitioner asserts that Attorney Muir was ineffective for failing to assert
on direct appeal a claim
to proceed pro se.

that Sixth Amendment right to counsel was violated when he was forced

(Doc. No. 1 at 8-19.) Petitioner maintains that he never waived his right to

* The standard under Pennsylvania law for ineffective
^
W"h ""
two-prong Strickland analysis. See Werts v. Vaughn, 228 F.3d 178, 203 (3d Cir. 2000).
10

counsel'andthatthe-trial-eeuFt-never-cQnducted-a_c.oJl.o.quy_pursuant to Farctta v. California, 422
U.S. 806 (1975), to

determine whether Petitioner was knowingly waiving his right to counsel.

(Id at 8-12.) According to

Petitioner, his conviction and sentence would have been vacated had

Attorney Muir raised this claim. (Id at 18.)
With respect to this claim, the Superior Court of Pennsylvania stated:
Appellant’s first claim concerns whether appellate counsel provided
a claim that Appellant was denied his

O’Hanlon, Esq., at 355-2012, and by appointed counsel, Darnel Nelson Esq., a
1228-2012. The hearing was held to address the attorneys’ motions to withdraw as
Appellant’s counsel.
At the hearing. Attorney O'Hanlon testified that there were financial issues

* sSsKsSSsEsk Sr
“anneared in court whether it was for pretrial or when we had the continue
motions to suppress with Your Honor.... [Appellant] thought that he ™sy>“e
represent himself and had made it near impossible for me to represent him ___
Attorney O’Hanlon also complained that Appellant repeatedly reques
ftivolous motions, which caused additional tension between them. As Attorney
O’Hanlon explained:
lElvery time I have said that I wasn’t going to do.that, I communicated with
him fully as. to the reason for me not doing it, but every time I ve s[een] him
up in Centre County [Correctional Facility] he would call me a d
head,
a f***ing cracker, ac*** sucker, everything like that. So it. . . has made
attomey/client communication impossible.
Id at 4 Attorney O'Hanlon further indicated that he had met with Appellant three
times, and had written to him on [at] least thirteen occasions. Id. at 6.

=i.r—i„ hi

i» dii... — a—;

O’Hanlon’s motion to withdraw his representation. Id at 6-9. As a result, the tria
court granted Attorney O’Hanlon’s motion to withdraw . Id. at 10.
11

The court then presented Appellant with a choice: that he proceed either
with Attorney JNeison as appointed counsel~for'the-consolidated-doeket—or-pro-seId. The court informed Appellant that, if he proceeded pro se, it would permit him
to refile any motion that had been rejected due to the ban on hybrid representation.
Id at 11. Appellant responded that he did not feel comfortable proceeding pro se.
Id at 12, However, he also indicated his displeasure with Attorney Nelson,
asserting that Attorney Nelson, as appointed counsel, was essentially working for
the same government that was prosecuting him. Id at 13. He also alleged
communication problems with Attorney Nelson. Id at 12-14. Attorney Nelson
responded:
Your Honor, there is a motion to withdraw. As I recall, two prior occasions
where we have been in front of different judges from this court, criminal
jury selection, criminal pretrial conference, my client has raised
irreconcilable differences. He’s raised my ineffective assistance. He’s
raised my inexperience in these matters. [A]t each juncture along those
lines, I’ve stayed willing to represent [Appellant],
Id at 18. Attorney Nelson then indicated that Appellant specifically requested that
he withdraw. Id. He continued as follows:
I actually do agree with [Appellant]. [There exist] significant
irreconcilable differences ... in this particular case.
It’s never happened to me before in my representation of individuals
in Centre Coutny but it is in this case. And it really came to a head at the
point in time I shared similar experiences to Mr. O’Hanlon and what he was
representing to the court, although I haven’t been insulted or maligned. He
hasn’t done anything like that to me. But with regard to advice, that
dynamic is supposed to take place between attorneys and clients, [but] there
is an absolute and complete breakdown.
I offer advice, [Appellant] listens to that advice, he usually responds
to that advice, and then even when we agree on some course ... it is
completely reversed. I’m then the liar in this matter and then I’m accused
of being ineffective—or I’m accused of offering ineffective assistance to
[Appellant],

This is classic in my interactions with [Appellant]. [F]rom the very first
time that I sat down with him to where we stand here and now, I’m not so sure that
we are in the face of an election where [Appellant] is actually choosing to proceed
pro se because he chooses to be his own attorney and he wants to be a true pro se
litigant.
I think we’re much, much closer to the forfeiture of counsel. He has done this
numerous times. He hasn’t worked with any of them. We have all cited same or
12

similar concerns with our interactions. And, truth be told, no matter how this goes,
even ill stay on tlTis“c"a"S'e7"h'ei'S'going"to-aeeuse-me-of-things-I-didnit-do-.-----------There is no doubt in my mind. It’s already happened once. And no matter
what our communications are, [Appellant] does not represent them as they actually
happened. There is no dynamic here with my client at all. I’m not sure how we
could possibly prepare.
Id. at 19-21.
Appellant responded that he was entitled to an attorney who he could “trust
to guard [his] life” and that he “should be able to work with that person to an
extent.” Id at 34. He indicated his belief that Attorney Nelson was essentially
outclassed by the prosecutor, A.D.A. Nathan Boob, and that he needed someone
more willing or capable to do battle against the Commonwealth. Id . at 35.
Appellant also asserted that his previous difficulties with appointed and private
counsel were not a ploy to delay justice. Id The trial court ultimately concluded
as follows:
The [c]ourt does find that there has been at least two court[-] appointed
attorneys, there has been one private counsel that this court has dealt with,
and there’has also been conversations with [other private attorneys]. At this
time the court does find that you forfeited your right to counsel based on
your conduct with these attorneys and that you will proceed pro se.
Id. at 37.
Appellant now contends that Attorney Muir, his prior appellate counsel, was
ineffective for failing to raise a claim during his direct appeal that the trial court
deprived him of his Sixth Amendment right to counsel by deeming that right to
have been forfeited. Appellant argues that his claim had arguable merit because
a thorough review of the September 13, 2012 hearing demonstrates the
[t]rial [c]ourt was never presented with competent evidence of [Appellant’s]
conduct to warrant or justify the finding that he had forfeited his right to
counsel and was thus forced to defend himself for pre-trial motions and trial
in two complex drug cases. In fact, no evidence was presented to the [t]rial
[c]ourt. [Appellant’s] conduct was commented on by all involved, but no
transcripts of prior proceedings indicating disruptive behavior were
admitted into evidence, and no testimony under oath was elicited indicating
[Appellant’s] treatment of or ability to work with his prior counsel. In short,
[Appellant] was not afforded the right to challenge the statements made
against him in an effort to show the trial court he had not conducted himself
in such a manner as to forfeit his right to counsel. The right [to] the
assistance of counsel in a criminal trial is a fundament right. It should not
be deprived on the basis of forfeiture absent competent evidence of a
13

(quoting [TTnited States v.l Goldberg, 67 F.3d [] 1092, 1100-02 (3d Cm
1995)H1. In the case sub judice, no such evidence was presented prior o
the trial court[’s] entering an order that [Appellant’s] right to counsel was
forfeited.
Appellant’s Brief at 10-11.
Our Supreme Court follows the [United States vJGoldbgrgl.67 F.3d 1092
13d Cir. 1995)] view of forfeiture. Sep. Commonwealth v. Lucarelli, 971 A.
,
1179 (Pa. 2009). Thus, a defendant’s right to counsel is forfeited when he engages
in 1) extremely serious misconduct; or 2) extremely dilatory conduct. IcL
Appellant’s ineffectiveness claim lacks arguable merit. There was clearly
a record made of Appellant’s misconduct toward both appointed and private
counsel, demonstrated, through the testimony of both Attorneys Nelson an
O’Hanlon. Their testimony adequately demonstrated both Appellant s extreme
misconduct in the attomey/client relationship, including false accusations o
wrongdoing and abusive communications by Appellant, as well [as] evidence ot
extreme dilatory conduct, such as Appellants repeated requests for the filing of
frivolous motions, and his repeated filing of pro sc motions while represented by
counsel. Because we conclude that such conduct satisfies the SaMsg s andanh
we hold that Appellant’s first [ineffective assistance of counsel ( IA )]
lacks arguable merit. []
Appellant’s specific complaint that the testimonies of Attorneys Nelson and
O’Hanlon were not made under oath is waived.[] Appellant did not raise this claim
in his Rule 1925(b) statement and, as a result of that [omission], *e issue was no
addressed in the PCRA court’s opinion. See Appellant’s Rule 1925(b), sta^e“^ ’
10/30/17 at 1 “Any issues not raised in a 1925(b) statement wil e
waived.”’ Commonwealth v. Lord, 719 A.2d 306, 309 (Pa. 1998) In any event we
would question the merit of such a claim. The Rules of Professional Condurt
dictate that a “lawyer shall not knowingly ... make a false statement of feet or law
. .” MRPC Rule 3.3(a)(1) (emphasis added). Moreover, Appellant
to a tribunal. .
provides no case law supporting his assertion that an attorney must be swom m
while litigating a motion to withdraw as counsel.
(Doc. No. 10-1 at 6-12 (footnotes omitted).)
The Sixth Amendment provides that “[i]n all criminal prosecutions, the accused shall
enjoy the right.

. . to have the Assistance of Counsel for his defence.” U.S. Const, amend. VI.

is not absolute, as.a defendant may lose his or her right to counsel
This provision, however, is
14

through forfeiture or waiver. See United States v. Leggett. 162 F.3d 237, 249 (3d Cir. 1998).
These “are separate, distinct concepts.” See United States v. Thomas, 357 F.3d 357, 362 (3d Cir.
2004). Waiver of counsel encompasses the “intentional and voluntary relinquishment of a
known right.” See United States v. Goldberg. 67 F.3d 1092, 1099 (3d Cir. 1995). A defendant’s
waiver of the right to counsel “must be knowing, voluntary and intelligent.” See Thomas, 357
F.3d at 362. If a defendant chooses to waive his right to counsel, the trial court “must undertake
an affirmative on-the-record colloquy to explain to the defendant the possibility of waiver and
give the defendant ‘an awareness of the dangers and disadvantages inherent in defending
oneself.”’ See id. ('quoting United States v. Welty, 674 F.2d 185, 188 (3d Cir. 1982)); see also
Faretta, 422 U.S. at 835. A defendant’s waiver of counsel is valid “only where the [trial] court
judge has made a searching inquiry sufficient to satisfy him that the defendant’s waiver was
understanding and voluntary.” See Welty, 674 F.2d at 189. “[T]o the extent that the defendant’s
actions are examined under the doctrine of ‘waiver,’ there can be no valid waiver of the Sixth
Amendment right to counsel unless the defendant also receives Faretta warnings.”6 Goldberg,
67F.3dat 1100.

6 There is “no talismanic formula” for a Faretta inquiry, but the United States Court of Appeals
for the Third Circuit has set forth fourteen (14) questions as a “useful framework” for such. See
United States v. Peppers, 302 F.3d 120, 135-37 (3d Cir. 2002). As the Third Circuit has stated,
[t]hese questions are intended to gauge a defendant’s understanding of the
challenges and risks involved in representing himself pro se, and inquire into such
areas as his familiarity with the Federal Rules of Evidence, the Federal Rules of
Criminal Procedure, the nature of the crimes he is charged with, the possible
penalties he faces, and the fact that an attorney would be more skilled in identifying
defenses, presenting evidence, and generally litigating the case.
United States v. Kosow. 400 F. App’x 698, 701 (3d Cir. 2010). Rule 121 of the Pennsylvania
Rules of Criminal Procedure provides that, at a minimum, a trial court should address the
following during a Faretta colloquy:
15

Pin the Other hand, “forfeiture results in the loss of a right regardless of the defendant s
knowledge thereof and irrespective of whether the defendant intended to relinquish the right.
See id, A trial court may conclude that a defendant has forfeited the right to counsel after
engaging in “extremely dilatory conduct” or “extremely serious misconduct.” See id at 110102. A court can fmd that forfeiture of counsel has occurred “regardless of whether the defendant
has been warned about engaging in misconduct, and regardless of whether the defendant has
been advised of the risks of proceeding pro se." See id at 1101. Forfeiture of counsel can occur
“based on a defendant’s verbal abusiveness, threats to harm an attorney, and attempts to make an
attorney engage in unethical activit.es” See Thomas, 357 F.3d at 362-63 (citing United States v,
McLeod, 53 F 3d 322 (11th Cir. 1995)). The United States Court of Appeals for the Third
Circuit has concluded that forfeiture of counsel also occurs in situations where a defendant tears
up correspondence from an attorney, refuses to cooperate, and attempts to force his or her
attorney “to file several meritless, frivolous claims.” See id, at 363.

(a)
(b)
(c)

(d)

(e)
(f)

that the defendant understands that he or she has the right to be represented
by counsel, and the right to have free counsel appointed if the defendant is
indigent;
that the defendant understands the nature of the charges against the
defendant and the elements of each of those charges,
that the defendant is aware of the permissible range of sentences and/or
fines for the offenses charged;
that the defendant understands that if he or she waives the right to counse ,
the defendant will still be bound by all the normal rules of procedure and
that counsel would be familiar with these rules,
that the defendant understands that there are possible defenses to these
charges that counsel might be aware of, and if these defenses are not raised
at trial, they may be lost permanently; and
that the defendant understands that, in addition to defenses, the defendan
has many rights that, if not timely asserted, may be lost permanently; and
that if errors occur and are not timely objected to, or otherwise timely raised
by the defendant, these errors may be lost permanently.

Pa. R. Crim. P. 121(A)(2).

16

______fa-,he4nstMt-case^sAadtom the state court record that Petitioner never received a
Faretta hearing and never waived his right to counsel. Petitioner, however, has not demonstrated
prejudice from Attorney Muir’s failure to raise this claim on direct appeal. As the Superior
Court set forth in its thorough opinion, the trial court found that Petitioner had forfeited, not
waived, his
No.

Sixth Amendment right to counsel based upon his conduct with his attorneys. (Doc.

10-5 at 9.) The record reflects that Petitioner was verbally abusive to Attorney O'Hanlon

and attempted to have

him file several meritless motions. (Doc. No. 21-20 at 4-5, 7.) Moreover,

Petitioner accused Attorney Nelson of lying and being ineffective. (Id at 19-21.) Attorney
Nelson repr

esented further that he would offer advice, Petitioner would listen to that advice, and

then “even when [they agreed] on some course,
to Attorney Nelson.

” Petitioner would change his mind and not listen

(Id. at 20.) Attorney Nelson argued that Petitioner had engaged in “extreme

misconduct” warranting forfeiture of counsel because he simply [could not] work with [

]

multitude of attorneys” who had appeared on h.s behalf. (Id, at 33.) The trial court noted that, as
of September 2012, Petitioner had had at least two (2) court-appointed attorneys, one privately
retained attorney, and had engaged in conversations about potential representation with another
attorney. (Id at 38.) Such behavior is
Circuit in Thomas.
court’s

akin to the behavior of the defendant noted by the Third

See Thomas, 357 F.3d at 363. There, the Third Circuit upheld the trial

conclusion that the defendant forfeited his right to counsel because he had been verbally

abusive to counsel, refused to cooperate, and attempted to force them to file meritless claims.
See id. Moreover,

“most critically, [the defendant, like Petitioner] engaged in this sort of

misconduct not once, but in relationships with four attorneys.” See id. Thus, even if Attorney
Muir had raised a claim regarding the trial court’s failure to provide a Faretta hearing, it is clear

17

that the state appellate courts would have upheld the trial court’s conclusion that Petitioner had
forfeited his Sixth Amendment right to counsel.
Upon review of the record, the Court concludes that the Superior Court’s disposition of
Petitioner’s claim did not result in a decision contrary to, or involve an unreasonable application
of, clearly established federal law and did not result in a decision based on an unreasonable
determination of the facts in light of the evidence presented during state court proceedings.
Petitioner has failed to demonstrate that he was prejudiced by Attorney Muir’s allegedly
ineffective performance because he has not demonstrated a reasonable likelihood that his direct
appeal would have been resolved differently if not for Attorney Muir s alleged deficiencies. See
Marmino 212 F.3d at 845. Accordingly, Petitioner’s first ground for relief will be denied.
C.

Ground Two

In Ground Two, Petitioner asserts that Attorney Muir was ineffective for failing to assert
on direct appeal a claim that Petitioner was improperly removed from jury selection. (Doc. No.
1 at 19.) Petitioner maintains that Attorney Muir’s failure to raise this claim prejudiced him
because “it is more likely than not that this claim would have resulted in a reversal of the
conviction and sentence.” (Id)
With respect to this claim, the Superior Court of Pennsylvania stated:
Next, Appellant argues that the trial court improperly removed him from
the jury selection process by 1) ostensibly forcing him to allow stand-by counsel to
select the jury panel, when Appellant believed that he was pro se during jury voir
dire and, later, 2) physically removing him from jury selection. As a result,
Appellant asserts that the trial court violated his Sixth Amendment rights, and that
Attorney Muir was ineffective for failing to raise related claims on direct appeal.
Appellant’s second IAC issue is clearly comprised of two distinct claims.
As discussed with regard to his first IAC claim, the trial court determined
that Appellant forfeited his right to counsel, permitted Attorneys O’Hanlon and
Nelson to withdraw, and appointed Attorney Nelson as standby counsel. However,
at the beginning of jury selection, the trial court, now with a different judge
18

the forfeiture of counsel had never occurred. See N.T., 12/3/12, at 9 Appell
objected, stating, “He is not my counsel. Let's go pick the jury. Ii In r“P“ns®'
the court attempted to conduct a waiver-of-counsel c°H°quy. IA *’t 9 '
Appellant, clearly growing impatient as the court tried to conduct the colloquy,
again stated, “I don't have counsel. I’m pro se. I don t know what changed today.
Id. at 11.
After a short break, the court then stated, “What I am faced with is an order
’s counsel
counsel. See Opinion and Order, 9/19/12, at 6 H 3 (“Attorney Daniel J. Nelson
Motion to Withdraw is GRANTED IN PART. Attorney Nelson will remain on as
Standby Counsel.”). Appellant indicated that he had
^
reappointing Attorney Nelson as full counsel. N.T., 12/3/12, at 15 ( I never
received this order, so I didn’t read any order. I am the defendant m this case. This
is my case. This is not his case. I asked him to be removed. He is standby counsel
He was ordered to be standby counsel.”). Nevertheless, the court responded, If
you cannot remain silent during the proceeding and allow Mr. Nelson to represent
him, then you will be removed.” hi at 16. Ultimately, Attorney Nelson conducted
voir dire over Appellant’s repeated objections.
Initially we begin our analysis by noting that Appellant was mistaken that

appointed c^iTsel is GRANTED. The [cjourt is mindful that by Opinion of Judge
Jonathan. Gnne, dated September 19, 2012, [Appellant] was deemed to have
forfeited his right to counsel. Now, on the cusp of jury selection, and m advance
of trial, the [c]ourt considers [Appellant’s] plea for representationt0 be™
justice and therefore re-appoints [A]ttomey Darnel Nelson, [Appellant s]
previously appointed, and current standby counsel.[”]). Thus, it was proper for
Attorney NeNon to conduct voir dire as Appellant’s court-appointed counsel
conclude the first part of Appellant’s second IAC claim lacks
Accordingly, we
arguable merit, as the factual basis for it is unsound.
Regarding the second part of Appellant’s second IAC claim, the trial court
physically removed Appellant from voir dire after the following occurred m the
presence of the jury pool:
[Appellant]:

Your Honor, can they take me back to jail?

The court:

No. I would like for you to stay with us Mr. Adams.
19

[Appellant]:

I need to go back to jailTTEad enough of'this.

Members of the prospective panel, if you heard that
The court:
comment, I would ask that you completely disregard what was just said.
If you cannot disregard that—I need to know if that prejudices you in
any way. Please raise your hand.
I certainly understand. Raise your hand again.
Juror No. 8, Juror No. 14, anyone else? All right.

I don’t agree with this situation. I really don’t.
[Appellant]:
They’re forcing me to trial. It’s not fair. I don’t have a fair and impartial
judge. Now they’re going to give a fair impartial jury[?]
The court: Will you take him back to the hallway please?
Take me back to jail. This is not a jury of my peers.
[Appellant]:
Ya’ll going to handcuff me or are you going to handcuff me in the
hallway? Ya’ll are not a jury of my peers. I’m black.
(Whereupon, [Appellant] was escorted out of the courtroom at this
time.)
N.T., 12/3/12, at 48-49.
As is apparent from the record, supra. Appellant essentially demanded his
own removal from the voir dire proceeding. On this basis alone, his LAC claim
lacks arguable merit. Appellant’s counsel cannot be deemed ineffective for failing
to argue that his Sixth Amendment right to be present at ypjr dire had been violated
when Appellant himself requested, on three occasions in quick succession, to be
removed from the proceeding and taken back to jail.
Alternatively, we also find this claim lacks arguable merit because the trial
court did not abuse its discretion by removing Appellant from voir dire given his
repeated, disruptive outbursts.
The United States Constitution^] the Pennsylvania Constitution^] and [the]
Pennsylvania Rules of Criminal Procedure 1117(a) guarantee the right of
an accused to be present in the courtroom at every stage of a criminal trial.
However, in Illinois v. Allen, 397 U.S. 337, 90 S. Ct. 1057, 25 L. Ed. 2d
353 (1970), the United States Supreme Court determined that the right to be
present in the courtroom is not absolute and explicitly held,
20

that a defendant can lose his right to be presenrat-trraHf-a-fter-hehas been warned by the judge that he will be removed if he continues
his disruptive behavior, he nevertheless insists on conducting
himself in a manner so disorderly, disruptive, and disrespectful of
the court that his trial cannot be carried on with him in the
courtroom. Once lost, the right to be present can, of course, be
reclaimed as soon as the defendant is willing to conduct himsell
consistently with the decorum and respect inherent in the concept of
courts and judicial proceedings.
Id, at 343, 90 S. Ct. at 1061-1061, 25 L. Ed. 2d at 359.
r.nmmonwealth v. Africa, 466 Pa. 603, 353 A.2d 855 (19 ).

See also,

-------nnwealth v. Basemore. 582 A.2d 861, 866-67 (Pa. 1990) (footnotes omitted).
Appellant argues that he “was not as disruptive during the jury selection
process as the defendant in Basemore” Appellant’s Brief at 12. He contends that
his “expression of frustration” did not constitute conduct that justified his remova .
Id. By way of comparison, in Basemore, immediately prior to voir dire, the
defendant essentially promised to make a mockery of the proceedings. Basemore,
582 A.2d at 867. He lived up to that promise:
When questioned by the trial judge, [the defendant] was unresponsive and
attacked the trial judge asking him if he was “out for blood,” and if he had
“wax” in his ears. [The defendant] threatened to disrupt the proceedings a
second time and was warned by the trial judge that if he did so he would be
removed from the courtroom.
When jury selection resumed, [the defendant] made a third outburst,
addressing a prospective juror as follows:
I have a question. Miss, this guy is not my lawyer. I fired him for
ineffective counsel. I have civil suits filed against him. I ve had
him under surveillance for three months. They will not give me
another lawyer. They trying to make me take their lawyer. He’s
been lying the whole entire time. He is not my counsel. He have
given me no paperwork. I do not know what’s going on and he is
not my lawyer. I’m asking, I’m begging do not take part in this
charade because this man is not my lawyer. He is not. I fired him.
It’s on the record but they will not give me another counsel. They
trying to tell me I have to take him when I don’t have to do anything.
He was going to sidebar quite a few times. Wouldn’t let me know.
He told me I do not have any rights. He told me to take a deal for
life in prison for something I did not do. I’m begging you [to] not
to take part in this charade.
21

Mr. Stein is not my lawyer. He’s not my lawyer. Miss, don’t even
listen to what he’s saying. Don’t waste your time. If you take part
in this charade, my blood will be on you[r] hands. He is not my
lawyer. I’ve had him defaced.
After a discussion in chambers with counsel, the trial judge in open court
again warned [the defendant] that if he disrupted the proceedings he would
be removed from the courtroom. The trial judge stated:
We are going to proceed with one more juror. If you disrupt the voir
dire with regard to that juror, you will be removed from this
courtroom and your trial will proceed in your absence.
Another prospective juror was questioned by counsel and [the defendant]
blurted out: “I do not have a lawyer, and this man is—they trying to get me
to take that character when I do not have a lawyer and it’s good that you’re
going to be dismissed. Glad to hear it and you can let him go[.”] The juror
was excused and [the defendant] was, pursuant to the trial judge s earlier
warning, removed from the courtroom.
Id. at 867-68 (citations omitted).
Instantly, Appellant argues that, unlike the defendant in Basemore, he did
not “verbally attack the judge, berate prospective jurors, or make it clear that he
intended to disrupt the proceedings.” Appellant’s Brief at 12. Initially, we reject
Appellant’s characterization that relief is warranted if his conduct did not reach the
level of disruption observed in Basemore. We agree with Appellant that his
conduct did not quite reach the level of disruption at issue in that case, however,
that does not mean that his conduct fell short of the standard for removal. Appellant
has not provided this Court with any case law suggesting that the disruptive
behavior addressed in Basemore constitutes the minimum bar for removal. Indeed,
in our view, Basemore’s behavior went far beyond what was required to remove a
defendant from trial under the Allen standard.
Here, the trial court repeatedly warned Appellant that he would be removed
if his behavior continued to be disruptive. See N.T., 12/3/12, at 6, 8, 12, 15-16, 2021, 23. Nevertheless Appellant continued to make statements out of turn that were
both disrespectful and disruptive to the proceedings and the trial court, both inside
and outside the presence of the jury pool. See id at 5 (feigning ignorance), 8-9
(questioning the integrity of the court), 10 (same), 11 (feigning inability to hear the
judge), 13 (inviting the court to hold him in contempt), 14-15 (accusing the court
of failing to followf] the appropriate legal process), 16 (making first request to be
taken back to jail), 22 (refusing to participate in the colloquy to proceed pro se,
22

____________ despite-clearl-y-seeking_to_pmceed.]3m-Se).;. 24 (making second and third requests to______
be taken back to jail), 48-49 (disrupting the jury selection process, as reproduced
supra). Thus, Appellant continued to be disruptive and disrespectful, even after the
trial court repeatedly warned that such conduct could result in his removal. As
such, we ascertain no error or abuse of discretion in the trial court s obviously
reluctant decision to remove Appellant from voir dire when his disruptive behavior
continued unabated in front of the prospective jury pool. Indeed, we commend the
trial court for its patients, its repeated attempts to satiated Appellant’s concerns,
and its clear intent to keep Appellant present for jury selection despite his repeated
transgressions. As such, we conclude that Appellant s collateral LAC claim lacks
arguable merit, as the trial court did not err when it physically removed him from
the courtroom during voir dire.
(Doc. No. 10-5 at 12-19.)
The United States Supreme Court has noted that “[o]ne of the most basic of the rights
guaranteed by the Confrontation Clause [of the Sixth Amendment] is the accused s right to be
present in the courtroom at every stage of his trial.” See Illinois v. Allen, 397 U.S. 337, 338
(1970) (citing T.fiwis v. United States. 146 U.S. 370 (1892)). Voir dire “is a critical stage of the
criminal proceeding, during which the defendant has a constitutional right to be present.

See

Bable v. Corbin. No. 11-145, 2013 WL 5514283, at *6 (W.D. Pa. Oct. 4, 2013) (citing Gomezw
United States. 490 U.S. 858, 873 (1989)). However, the Alien Court held that
a defendant can lose his right to be present at trial if, after he has been warned by
the judge that he will be removed if he continues his disruptive behavior, he
nevertheless insists on conducting himself in a manner so disorderly, disruptive,
and disrespectful of the court that his trial cannot be carried on with him in the
courtroom.
Allen, 397 U.S. at 343. This right may be “reclaimed as soon as the defendant is willing to
conduct himself consistently with the decorum and respect inherent in the concept of courts and
judicial proceedings.” See id.
In the instant case, Petitioner has not demonstrated prejudice from Attorney Muir’s
failure to assert on direct appeal a claim that Petitioner was improperly removed from jury
selection. As an initial matter, the Superior Court correctly determined that Petitioner was not
23

preeeediBg-^ra-&§-4«r4ng-vw-di^^D.espiteXe.tijiQnerIS-p.rjpJ.estatiQas, the, record reflects that he
requested the appointment of counsel and his request was granted prior to jury selection, despite
the trial court’s previous determination that Petitioner had forfeited his right to counsel. (Doc.
No. 21-24 at 3-16.) Moreover, the record demonstrates that the trial court repeatedly warned
Petitioner that he would be removed from the courtroom if he continued to be disruptive;
nevertheless, Petitioner continued to make disrespectful and disruptive comments both in and out
of the presence of the jury pool. (See generally Doc. No. 21-24.) Furthermore, the record
reflects that Petitioner was not removed from the courtroom until jury selection was all but
completed and that the jury was impaneled right after his removal. (Id at 50-53.)
Upon review of the record, the Court concludes that the Superior Court’s disposition of
Petitioner’s claim did not result in a decision contrary to, or involve an unreasonable application
of, clearly established federal law and did not result in a decision based on an unreasonable
determination of the facts in light of the evidence presented during state court proceedings.
Petitioner has failed to demonstrate that he was prejudiced by Attorney Muir ’ s allegedly
ineffective performance because he has not demonstrated a reasonable likelihood that his direct
appeal would have been resolved differently if not for Attorney Muir’s alleged deficiencies. See
TVfarmino- 212 F.3d at 845. Accordingly, Petitioner’s second ground for relief will be denied.
D.

Ground Three

In Ground Three, Petitioner maintains that Attorney Muir was ineffective for failing to
assert on direct appeal that Petitioner’s right to a speedy and prompt trial was violated. (Doc.
No. 1 at 20.) According to Petitioner, this issue had merit “and could have[] reasonably resulted
in all of the charges being dismissed with prejudice.” (Id) With respect to this claim, the
Superior Court of Pennsylvania stated:
24

=s*SSSS!SS^^sSS

motion on August 14,2012, more than “180 days had passed from the taw ch*ges
were brought against him and he had not been brought to trial. AppeUanB
at 15. Appellant then argues that the trial court’s determination that Rule 600 had
not been violated at that time was unreasonable and, therefore that appe
counsel was ineffective for failing to raise a related Rule 600 claim during his direct
appeal. Id. at 15-16.
This claim lacks merit on its face. There is no appellate remedy for■apretna
violation of Rule 600’s 180-day rule. Rule 600(B)(1) provides that no defendan
shall be held in pretrial incarceration in excess of ... 180 days from the date on
which the complaint is filed . . . .” The remedy for a violation under subsection B
of Rule 600 is set forth in Rule 600(D)(2), which is release by the trial court on
Only violations pursuant to subsection A’s 3 65-day rule afford the
nominal bail.
remedy of a dismissal of charges with prejudice. See Rule 600(D)(1), Sj£ to
------ Lwealth v. Abdullah, 652 A.2d 811,813 (Pa. 1995) (holding that Rule 1100
(the prior version of Rule 600) “does not provide a remedy for a defendant who is
improperly denied release on nominal bail”). Accordingly after Appellant was
tried and sentenced, any pretrial violation of Rule 600’s 180-day rule was rendered
moot. Accordingly, we will not deem appellate counsel ineffective for failing
seek relief for a claim, meritorious or not, where no remedy is available.

(Doc. No. 10-5 at 19-20.)
Upon review of the record, the Court concludes that the Superior Court’s disposition of
Petitioner’s claim did not result in a decision contrary to, or involve an unreasonable application
of, clearly established federal law and did not result in a decision based on an unreasonable
determination of the facts in

light of the evidence presented in the state court proceedings.7 As

the Superior Court correctly set forth, although Petitioner was held in custody for more than 180
days from the date

on which the complaints were filed, there was no remedy available to him.

7 The Court agrees with Respondents that Petitioner did not argue before the Superior Court or
this Court that his speedy trial rights under the Sixth Amendment to the United
Constitution were violated. - (Doc. No. 21 at 27 n.2.) Consequently, “the only federal claim
before this Court in ground three is that [Petitioner] was denied his right to counsel under the
S xrrSendJSi dS to the alleged ineffectiveness of Attorney Mtur for not raising an issue on
direct^fqieal that [Petitioner’s] spledy trial thunder Pa. R. Cnm. P. 600 were violated. (Id)

'MQfebvefrPHiTi,onCT'waXtri’ed^ell^ithip-365-days4ram-th^filmg-Qf4-he-.fiist-Comp.lamt,--------therefore, Attorney Muir had no basis upon which to argue that the charges against Petitioner
should have been dismissed with prejudice pursuant to Rule 600(A). Petitioner has not
overcome the presumption of effective assistance by appellate counsel because his speedy trial
claim is not stronger than the Alleyne claim presented by Attorney Muir. See Smith, 528 U.S. at
285. Moreover,
case

Petitioner has not demonstrated that the appellate court would have resolved his

differently but for Attorney Muir’s failure to raise this claim. See Manning, 212 F.3d at

845. Accordingly, Petitioner’s third ground for relief will be denied.

E.

Request for an Evidentiary Hearing

Petitioner also requests that the Court hold an evidentiary hearing. (Doc. No. 1 at 21.)
Section 2254(e)(2)(B) provides that “the court shall not hold an evidentiary hearing on the claim
unless the applicant shows that-.. . (B) the facts underlying the claim would be sufficient to
establish by clear and convincing evidence that but for constitutional error, no reasonable
factfinder would have found the applicant guilty of the underlying offense.” See 28 U.S.C.
§ 2254(e)(2)(B). Upon consideration of the record, the Court concludes that Petitioner has not
made the requisite showing. Accordingly, his request for an evidentiary hearing will be denied.
IV.

CERTIFICATE OF APPEALABILITY
Pursuant to 28 U.S.C. § 2253(c)(1)(A), unless a circuit justice or judge issues a certificate

of appealability (“COA”), an appeal may not be taken from a final order in a proceeding under
28 U.S.C. § 2254. A COA may issue only if the applicant has made a substantial showing of the
denial of a constitutional right. See 28 U.S.C. § 2253(e)(2). “A petitioner satisfies this standard
by a.-----strafing that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
26

encouragement Urprocee

^,^w^l11er=ELY._Cockrell 537 U.S. 322 (2003). Accordingly,

ble jurists could not disagree with the resolution of this petition, there is no basis for the
reasona
issuance

of a COA. Thus, the Court will decline to issue a COA, as Petitioner has faded to

bstantial showing of the denial of a constitutional right.” See 28 U.S.C.
demonstrate “a su
§ 2253(c)(2); see also Slack v. McDaniel, 529 U.S. 473, 484 (2000).
V.

CONCLUSION
For the foregoing reasons, Petitioner’s petition for a writ of habeas corpus pursuant to 28

U.S.C. § 2254 (Doc. No.

1) will be denied, and the Court will not issue a COA. An appropriate

Order follows.

.).

27

IN twit ttnTTED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA:
ANDRE M. ADAMS,
Petitioner

No. l:19-cv-01455

v.

(Judge Kane)

SUPERINTENDENT
SCI HUNTINGDON, et ah,
Respondents
ORDER
AND NOW, on this 21 st day of October 2020, in accordance with the Memorandum
filed concurrently with this Order, IT IS ORDERED THAT:
1.

Petitioner’s petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254 (Doc.
No. 1) is DENIED;

2. A certificate of appealability SHALL NOT ISSUE, and

3

The Clerk of Court is directed to CLOSE the above-captioned case.

■

'

s/ Yvette Kane
Yvette Kane, District Judge
United States District Court
Middle District of Pennsylvania

IN THE COURT OF
OF CENTRE COUNTY, PENNSYLVANIA
CRIMINAL DIVISION
COMMONWEALTH

NO. CP-14-CR-355-2012
NO. CP-14-CR-1228-2012

VS
ANDRE ADAMS
TRANSCRIPT OF PROCEEDINGS
(Motions Hearing)
BEFORE:
DATE:
PLACE:

Thomas King Kistler
President Judge
January 3, 2013
Centre County Courthouse
Couttroom No. 1
102 South Allegheny Street
Bellefonte, PA 16823

APPEARANCES:
FOR THE COMMONWEALTH:
Patrick Leonard, Esq.
Assistant Attorney General
FOR THE DEFENDANT:
Andre Adams, Pro se
ALSO PRESENT:
Daniel Nelson, Esq.
NOTES BY:

Thomas C. Bitsko, CVR-CM-M
Official Court Reporter
Room 208, Centre County Courthouse
102 South Allegheny Street
Bellefonte, PA 16823

i B

‘ “ ....C

{

62

1

in October, so I haven't had the proper time to

2

prepare.

3

lawyer, so that's 30 days' wasted of thinking he was

4

going to be the lawyer, which stopped me from doing

5

anything.

6

you're going to allow me to bring the guy from jail

7

that I paid to type these motions up or that looks

8

this stuff up to come and represent me, I don't know

9

if that's legal --

You just told Daniel Nelson he's not the

All these motions that I'm filing, unless

It is not.

10

THE COURT:

11

THE DEFENDANT:

12
13

way to represent myself,

— but I don't have any
I. would

I need a lawyer.:

ask the Court to appoint me a lawyer to at least help
.W W H W*1

m n.

14

me with my case so I have a fair chance and that

15

everything is not just preserved for appeal.
THE COURT:

16

Mr. Adams, you've been
The

17

appointed lawyers until we've run out of lawyers.

18

motion at this time

19

this 3rd day of January 2013, defendant's final,

20

fitful attempt to secure counsel after counsel has

21

been appointed for the defendant on numerous occasions

22

is hereby denied.
THE DEFENDANT:

23
24
'2'5 '

the defendant's

and now,

What did I do; to j-ose my

rights?
THE- COURT : —The-last .order,.before I_

62

\

63

1

excuse Mr. Leonard — and you will be in front of

2

judge who in Middleburg?
MR. LEONARD:

3
. 4

Shawley.

5

THE COURT:

6

MR. LEONARD:

7

THE COURT:

8

and let him know you're on your way.
MR. LEONARD:

9‘

:

I believe it's Judge

10

Yes.
I'll make a telephone call

Thank you.

I appreciate

that.
THE DEFENDANT: ' Petition for review, is

11
12

Shawley?

that denied, Your Honor?
THE COURT:

13

And the order will be:

And

14

now, this 3rd day of January 2013, the Court dismisses,

15

the following, motions as being either untimely filed

16

and/or being filed by the defendant pro se while

17

already represented by counsel are as follows:
1.

18
19

Petition for review by the President

Judge filed 12-12-12.

20

2.

21

filed 12-21-12.

Motion for stay of court proceedings

Next, motion to compel production of

22
23

confidential informant or'to dismiss prosecution filed

24

12-26-12.

25

Next, motion for suppression filed 12-2663

a

64

1

12 .
Next, motion to quash indictment or

2
3

information filed 1-2-13.
Ross, R-O-S-S, motion to dismiss filed 1-

4
5

2-13.

6

Motion for suppression filed 1-2-13.

7

Disclosure of informant's reliability

8

filed 1 — 2013 .
Motion to compel production filed 1-2-13.

9

Motion to Dismiss due to outrageous

10

/

11

government conduct filed 1-2-13.

12

■Motion to

suppress filed 1-2-13.

13

Motion to

suppress filed 1-2-13.

14

Motion to

suppress filed 1-2-13, and

15

petition for reconsideration filed 1-2-13.

16

By the Court.

17

Okay.

18

THE DEFENDANT:

19

THE COURT:

Yes.

I dismissed it as being

untimely filed.
THE DEFENDANT:

22
23

Your Honor, is the

petition for review, denied, too?

20
21

Thank you.

can I

Well, can I ask you —

if I filed --

24

THE COURT:

25

"MR:■LEONARD:

Mr. Leonard, you're, excused.
Thank you-, Judge .-

-—

..

64

*

■

1

65

1

Well, he's excused.

2

Well, Judge, can I still file these motions now that

3

I'm my own counsel?

4
5
6
7
"

THE DEFENDANT:

8
9
10
11
12
13

THE COURT:

You may file any motions that

you wish at this time.
THE DEFENDANT:

Are you allowed to file

this or do I have to send it in the mail?
THE COURT:

Mr. Nelson is a spectator.

Mr. Nelson is not your lawyer.
THE DEFENDANT:

Well, I'm asking him.

I'm not asking you anything.
THE COURT:
ENDOF

Thank you.

PROCEE

DINGS

14
15
16
17
18
19
20
21
22
23
24
25

65

i

66

CERTIFICATE

1

I hereby certify that the proceedings and

2
3

evidence are contained fully and accurately in the

4

notes taken by me upon the hearing of the within

5

matter and that this copy is a correct transcript of

6

the same.

7
8
9
10
/

.11
/

12
13

Date

Thomas C. Bitsko, CVR-CM-M
Official Reporter

14
15
16
17
18
19
20
21
22
23
24
25

66

»

67

CERTIFICATE

1

I hereby certify that a copy of this transcript

2

the

3

was made available to counsel of record.fo

4

parties, advising they had until

5

which to file any objections or exceptions to the

6

same.

7

recording of objections or exceptions, the transcript

8

is therefore lodged with the Court for further action.

f

6 ///?
/

in

That time period having elapsed without

9
10
11
/

12

r-—"7/
/

13
14
15

Date

Thomas C. Bitsko, CVR-CM-M
Official Reporter

16
17
18
19
20
21
22
23
24
. 25

67

*

68

ACCEPTANCE

1

B Y

COURT

Upon counsel's opportunity to review and to offer

2
3

objections to the record, the foregoing record of

'4

proceedings is hereby accepted and directed to be

5

filed.

6
7
8

9
10
11

Date

Brian K. Marshall,

Judge

12
13
14
15
16
17
18
19
20

21
22
23

24
25

68

